Department of Health and Human 
                                 Servces
               OFFICE OF

          INSPECTOR GENERA





EFFECTS OF HOSPITAL MERGERS ON

  COSTS, REVENUES, AND PATIENT

            VOLUME





                                  .. SUW/Ctn
                                 to\'
                          ';i.
                                               Richard P. Kusserow
                                               INSPECfOR GENERA
                     '0



                                        clla         JU 199
                      OFFCE OF INSPECfOR GENRA

The mision of the Office of Inspetor General (OIG), as mandated by Public Law 95-452, as
amended is to protect the integrty of the Department of Heath and Human Servce ' (HHS)
programs as well as the heath and welfare of beneficiares selVed by thos programs.
statutory miion is carred out through a nationwide netwrk of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servce, the
Offce of Investigations, and the Offce of Evaluation and Inpetions. The OIG also inform
the Secretary of HHS of program, and management problems , and recmmends cours to
correct them.

                         OFFCE OF AUDIT SERVICE
The OIG' s Offce of Audit Servce (OAS) provides all auditing servce for HHS , either by
conducting audits with its own audit resource or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantee and contractors in
carrng out their respective responsibilties and are intended to provide independent
assesments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency thrughout the Department.


                         OFFCE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , cil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
                                                          al
administrative sanctions , or civil money penalties. The 01     oversee State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECfONS
The OIG's Offce of Evaluation and Inspetions (OEI) conducts short- term management and
program evaluations (called inspetions) that focus on isues of concern to the Department,
the Congres , 1l.!4 the public. The findings aQd recmmendations contained in these inspetion
report generate rapid , accurate, and up- to-date information on the effciency, vulnerabilty,
and effectivenes of departmental programs.

This report was prepared by Thomas A Noplock, CPA, of the OEI Health Care Branch with
the asistance of W. Mark Krushat , Sc. , and Linda M.
Support Staff.
                                                        Mosof the OEI Technical
 Department of Health and Human Servces

         OFFICE
    INSPECTOR GENERAL





EFFECTS OF HOSPITAL MERGERS ON

 COSTS , REVENUES , AND PATIENT

            VOLUME





             .. SERV/Ctn
            to\'


                           Richard P. Kusserow
                           INSPEcrOR GENERA
       "1
            ;f~clla
                                      9050
                               OEI- 12-
                       ..............................................
                 ...................... ...............................
                                                 .......................
                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                      ................................................




                       TABLE OF CONTENTS

EXECUTIV SUMMY
PURPOSE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

METHODOLOGY

FINDINGS

APPENDIX A                                                                                  . . . . . . . . . . . . . . A­
APPENDIX B


APPENDIX C . . . . . . . . . . .
               EXECUTIVE SUMMARY

PUROSE
To determine the effects of hospital mergers on costs, revenues , and patient volume.


BACKGROUN
Dramatic changes have occurred in the health care industry in recent years , including
growth in the number of hospital mergers. While some hospitals claim that merger is
the solution to problems associated with patient volume and profitabilty, the U.
Department of Justice and the Federal Trade Commission believe that some mergers
can reduce healthy competition and are not necessarily the best way to increase
effciency and decrease cost.

Secretary Sullvan appointed a Task Force in November 1989 to examine the
Department of Health and Human Servces (DHHS) policy on hospital mergers and
he asked the Inspector General to analyze several issues surrounding mergers.

MEODOLOY
We randomly selected eleven hospital mergers from the American Hospital
Association s list of 20 mergers occurrng in 1987. We also identified a control group
of hospitals which were geographically similar to the eleven merged hospitals. We
compared the two groups of hospitals using data from the Hospital Cost Report
Information System (HCRIS) maintained by the Health Care Financing
Admistration (HCFA). These data items represent various measures of costs
patient revenues , and patient volume.

FIINGS
       Mered   hoithopils
       dieren frm
                     reded th co of doin b
                          whih ha not       pa             butothe
                                                         in a meer
                                                                       were not



       Baed on our
       spe hopitaPs         di
                          it is       to predt what efec
                        opetig characteti wi
                                                            a meer wi have
                                                     any deee of accuacy.
                                                                              on a
                         INTRODUCTION
PURE
The purpose of this inspection is to determine the effects of hospital mergers on costs
revenues , and patient volume.

BACKGROUN
Dramatic changes have occurred in the health care industry in recent years, including
remarkable growth in the number of hospital mergers. Increasing market share
patient volume , and profitabilty are some of the reasons given for hospital mergers.
A weak hospital that is losing money may fid it more acceptable to merge with a
financially stronger hospital than to go out of business. The stronger hospital can
increase its market share by selectively marketing the most successful servces of the
weak hospital. While some hospitals claim that merger is the solution to their
problems , the U. S. Department of Justice (DOJ) and the Federal Trade Commission
(FTC)  believe that some mergers can reduce healthy competition and are not
necessarily the best way to increase effciency and decrease costs.

The Secretary, Department of Health and Human Servces , appointed a Task Force in
November 1989 to examie the Department' s policy on hospital mergers. He asked
the Inspector General to analyze several issues surrounding mergers.


This inspection is a companion study to the Offce of Inspector General reports
entitled "The Effects of Hospital Mergers on the Availabilty of Servces " (OEI- 04-90­
02400) and "The Effects of Hospital Mergers on the Availabilty of Servces: A Case
Study of Eight Hospital Mergers " (OEI-04-91-oo5oo).

MEODOLOY
We randomly-selected eleven hospital mergers from the American Hospital
Association s list of 20 mergers occurrg in 1987. We also identifed a control group
of hospitals which were geographically similar to the eleven merged hospitals. We
compared the two groups of hospitals using data from the Hospital Cost Report
Information System (HCRIS) maintained by the Health Care Financing
Administration (HCFA). These data items represent various measures of costs
patient revenues , and patient volume.

Our purpose does not include a review of the criteria or formulas used by the
Department of Justice (DOJ) to approve or disapprove mergers.

A full description of methodology and data analysis is included in appendix A.
                                                                                     , p-




                                          FINDINGS

          hopi reded th cots of doin bus
Mered
pati volu in compn to
a meer
                                          si pla ho     but di   not
                                                             whih ha not  pa
                                                                  ineae reven

The results of our analysis show that, to the extent that the control group represents
an appropriate comparison , hospitals that merged in 1987 differ only slightly from
hospitals not participating in a merger. However, some differences do exist.

Interpretation of the Data

To compare the two groups of merged and non-merged hospitals we calculated the
percent change in costs, revenues and patient volume after the mergers took place.
Two statistical tests were used to determine if the merged group of hospitals differed
signifcantly from the controls (that is , increased or decreased their costs , revenues and
patient volume more than the non-merged hospitals). The Wilcoxon Rank Sum
procedure tests to see if one group tends to have values lower or higher than the
other. The Medians Test determines if one group has a significantly greater number
of values above the median of both groups.

Table 1 contains a listing of cost report items for merged and control hospitals. For
each item tested , the p-values provide an indication of the probabilty that the two
groups differ with respect to that variable , according to either the Wilcoxon Rank Sum
procedure or the Medians Test. The lower this value, the more likely the observed
diferences are not due to chance alone. The asterisks in Table 1 indicate those tests
with p-values below the 0. 05 cutoff value , the point traditionaly used to indicate
statistica signifcance. However, because a large number of tests have been
conducted, it is questionable that every difference with a p-value between 0. 05 and
  01 is signcant. (When a high number of tests are performed, we increase the
probabilty that at least some of the values wi difer purely by chance. ) Even so
values less than 0.05 can be indicative     potential trends. Also, included are the
                                              ot

average percent changes for each group from the pre-merger period to the post-
merger period.

Results

As Table 1 indicated , most of the items that show a p-value of less than 0. 05 on at
least one of our tests are cost items. In addition, for most of the cost items , the
merged hospitals showed either reductions in the values from pre- to post- merger , or
a smaller increase than the control        hospitals.

Two of the cost report items stand out: expenses associated with Medical and other
Servces (Summary Sheet) and Total Fixed Assets. The results indicate that the
merged hospitals reduced their costs in these categories while the control hospitals
experienced increases during the same time periods.   Both of these differences were
highly signficant for both tests.

While the merged hospitals reduced costs (or limited increases in costs) in comparision
to the control group of non-merged hospitals , few differences between the groups
appeared with respect to revenues or patient volume. Only two variables in these
categories showed any significant differences. The number of inpatient days for
Medicare dropped in the merged hospitals while slightly increasing in the controls , and
hospital ancilary charges for Medicare inpatient days increased at a lower rate in the
merged hospitals than in the controls.

Baed on OU          it is   di      to pred wha efect a meer
hoitl's opetig characteti wi an deee of accucy.
                                                               wi hae on    spe
The Coeffcient of Variation (COY) is a common statistical function that measures the
variabilty in data. It also allows for comparisons of the variabilty across diferent
data elements. The COV is the calculated standard deviation expressed as a percent
of the mean. Table 1 includes the COV of the 39 data elements for the pre-merger
post-merger differences. Overall , the average of these values is 626 percent. This
demonstrates extreme variabilty in the data presented. This extreme variabilty, which
may be due to the small number of hospitals examined or inherent variabilty of the
data , makes it diffcult for us to predict the outcomes mergers may have for specific
hospitals on various aspects of costs , revenues , or patient volume.
                                                      Table 1

                                        Non Parametric Test Results
                                                                                              Pre-Post
                                                                          Average Percent    Difference
                                                        p-Values              Change         Coffcient
                 Cot Report Item                     Wilcoon Median       Mergers Controls   of Variation

Patient Volume:

Total Be    Available in the Hospital                   293        677     11.5%     1.6%       172 %

Total Be Days Available in the Hospital                 131        211     13.       1.5%       138 %

Medicare Inpatient Days-Hospital Total                  076        037*                        1453 %

Medicaid Inpatient Days-Hospital Total                1.00         677     49.      44.         220 %

Inpatient Days, All Patients- Hospital Total            131        211     -6.                  279 %

Medicare Disharges-Hospital Total                                  211               1.3%       152 %

Medicaid Disharges-Facility Total                                  677     13.      16.         312 %

Total Disharges , All Patients-Hospital Total           101        211     15.5%                134 %


Revenues:

Total Ancillary Charges-All Cot Centers                 189        211     13.      20.3%       148 %

Total Medicare Inpatient

             Hospital Ancillary Charges                            005*     7.5%    16.         331 %
Total Outpatient Charges                                131        211     25.      44.          99 %
DRG Payments-Other Than Outlers                       1.00         677      0.3%                565 %
DRG Outlier Payments                                    237        211    132.     207.         147 %
Total Patient Revenues                                0.511        211              14.         183 %
Net Income or (Lo)                                                 677    20.      -6.          155 %

Cot and Fixed Asts:

Deprecation-Buildings and Fixures                       805        839                          338 %

Deprecation-Movble Equipment                          0.307        291      6.5%    21.6%      2021 %

Direc Salaries-

         Al General Servce Cot Centers                0.358        211    -0.5%      1.0%       513 %
         All Hospital Inpatient Cot Centers             149        037*   -8.        3.3%      7389 %
         All Other Inpatient Cot Centers                049*       211    53.       80.         379 %
         Al Ancillary Servce Cot Centers                           677      7.3%    11.9%       265 %
         AI Outpatient Servce Cot Centers             1.00         677     26.      31.6%       194 %
         Tota                                           149        211      1.%                 358 %
Other Dir. Cot-
        Al General Servce Cot Centers                   115        037*     2.4%     5.3%       778 %
         Al HQSpital Inpatient Cot Centers            0.793        677     78.      222%        570 %
         Al Other Inpatient Cot Centers               0.358        677    298.3%   141.9%       46 %
         Al Ancilary Servce Cot Centers                 02*        037*             12.0%       367 %
         Al Outpatient Servce Cot Centers               101        211              26.3%       541 %
         Total                                          02*        037*    -0.3%    10.4%       910 %
Total Capital- Related Cots                           0.393        211     -0.4%    18.         36 %
Total Facility Cots                                     049*       037*     1.3%    10.4%      340 %
Total Inpatient Ancillary Cots                          393        677     -4.                 560 %
Total Outpatient Cots                                   101        211     17.      29.        113 %
Medicare Inpatient Ancilary Cots
        Before Limitation                             0.399        677     -4.4%               847 %
Medicare Malpractice Cots                               470        677      1.6%   187.        188 %
Total Medicare Inpatient Operating Cots
        Including Pas-Through Cots                      076        037*    -4.                 1605 %
Reimbursble Bad Debts ,    Net of Receries              694        677    125.      69.         245 %
Medical and Other Servce (Summary Sheet)                001*       00*     10.4%    29.        217 %
Total FIxed   Asts                                      010*       037*    11.6%                34 %
Avera e Coffcient of Variation For Pre-Post     Difference                                      626 %
                                APPENDIX A

                                      MEODOLOY


Constrcton of Study Groups

The AH (American Hospital Association) identifed 20 mergers occurrng in 1987
involvig at least two general , short term , acute care hospitals , coexisting either in the
same county, if rural , or the same MSA (Metropolitan Statistical Area), if urban
representing distinct physical plants that were unified under one management. The
result of the merger could be the continuing operation of both facilties or only one.
For this inspection, a merger also includes acquisitions of one hospital by another as
long as the location requirements , as stated above , were met. Mergers that
represented only administrative reorganiztions of a single physical plant were
excluded. This definition conforms to that used in the previous OIG inspections.
From this original group of 20, we randomly selected 11 mergers for study. Appendix
C contains a list of the hospitals included in this report.

To create a control group, we identified geographically similar hospitals in the areas
identifed by the 11 mergers. Two factors were considered in the construction of the
control groups: size of the hospital and geographic location. The size of the hospital
was determined by the number of beds as reported in the PPS- 5 cost report data (see
below. )   For the mergers ,   the bed size of the institution resulting from the merger was
used.

Geographic location was determed by identifg the State and County in which the
merged hospitals were located. Al other hospitals located withi the same county and
of approxiately the same bed size were included in the control group. If there were
too few hospitals , or no other hospitals located withi the county, the adjacent
counties were included until at least two other hospital of approxiate size and
proxiity were- found. Geographic        location took precedence over bed size. That is
control hospitals smaller that the merged hospital were included if counties considered
too far from the index county were necessary to obtain control hospitals of
approximately equal bed size.

Analca Method


Comparisons of the control hospitals to the merged hospitals were undertaken using
data items in the Hospital Cost Report Information System (HCRIS) maintained by
the Health Care Financing Administration (HCF A). Ths system maintains the cost
report filed by each hospital providing servces under Medicare. The data reported
on the cost reports is not just Medicare data but represents data for the entire
operation of the hospital. This is important because the focus of this inspection is not
limited to Medicare. The data is ordered into files representing reporting cycles based
                                                                          '.




upon fiscal years and are designated as PPS- 1 through PPS-6. PPS- l      includes those
cost reports with fiscal years beginnng after September 30, 1983 but before October 1
1984. PPS- 2 includes those cost report with fiscal years beginning after September
  , 1984 but before October 1, 1985 , and so on. No periods were chosen before PPS­
1 in order to avoid mixng PPS cost report with non-PPS cost report. PPS-6 cost
report were the most current available. The items on data elements were selected
based on recommendation from the HCRIS staff to represent the economic changes
to the entire hospital that would result from a hospital merger. The list of the items
used is presented in Appendix B. For each hospital in both the merger and control
group, each item from the cost reports for PPS- 2 and PPS- 3 were averaged to obtain
an combined estimate. These were considered the pre-merger values. The post-
merger values were obtained from the PPS- 5 data for all hospitals. The pre-merger
and post-merger values were again averaged across all of the control hospitals
associated with each merged hospital. We thus obtained 22 pre-merger and 22 post-
merger values for each item in Appendix B; 11 from the merged hospitals and 11 from
the average of the control hospitals.

To account for the effects of inflation, the amounts reported in PPS- 3  and PPS- 5 were
adjusted to reflect constant dollars using PPS- 2 as the base year. The amounts in
PPS- 3 and PPS- 5 were multiplied by 0. 9614 and 0. 8652, respectively. Percent changes
were then calculated using these revised amounts.


Constrcton of Control Group

The number of hospitals used as controls in the index county, that is , the county where
  merger occurred, and in the adjacent counties are indicated on the maps. Also
included is a tabledetag    the control group, by bed size , for each of the merger
situations. In the cae of the merger that occurred in Arkansas , we were unable to
identif appropriate control hospitals of simiar bed size in close proximity to the index
county (Table AI).  The following table summaries the distribution of merger and
control hospils. by bed size.

                                     Number of Hospitals
              Bed Size              Mergers Controls
              .c 100 Beds
              100- 299 Beds
              300+ Beds
              Totals                  11
                                      J.




The eight control hospitals of less than 100 Beds include the six small hospitals
imposed by the Arkansas case. A comparison of these two distributions indicates that
this dictated difference is not statistically significant (Chi-square = 2. 138, degrees of
freedom = 2). The average bed size of the merged hospitals is 259 beds , with a 95
percent confidence interval of 188 beds to 330. That of the control hospitals is 227
beds , with a 95 percent confidence interval of 245 to 329 beds.
Selection of control hospitals in adjacent, or nearly adjacent, counties represent an
attempt to control for demographic and economic conditions. For this analysis, it was
assumed that hospitals located in close proximity; at the county level , would be subject
to similar pressures affecting changes between the pre- and post- merger time periods.

These results would indicate that , on the whole, the control group is comparable to
the merged hospitals , at least with respect to the variables included here.



                                 Table Al

                                 Bed Size Strata             Average Bed Size
                                        100
                                       299       300+      Controls      Mer ers
     ARKASAS                                                 74.           301
     IOWA                                                   135.           238
     KASAS                                                  219.           123
     MASACHUSETT                                            444.           510
     MICHIGAN                                               367.           230
     MISSOURI                                               257.           246
     NEBRAKA                                                188.           194
     NEW YORK                                               292.           416
     PENNSYLVANIA                                           332.           296
     TENNSEE                                                197.           108
     WASHINGTON                                             176.           187
      :: -
        :::::::::::
        ~~~~~~~       g





         1:
         :: 0
        '8
      Q) g
         c 8
         ::::' 0
           1 z

 CD
13
                                 APPENDIX 

                              ITS INCLUDED IN ANALYSIS

Report Items and HCRIS Data Element Numbers

Total Be Available in the Hospital                      F45
Total Be Days Available in the Hospital                 F52
Medicare Inpatient Days- Hospital Total                 F59
Medicaid Inpatient Days- Hospital Total                 F65
Inpatient Days, All Patients- HospitalTotal             F72
Medicare Discharges-Hospital Total                      F82
Medicaid Discharges- Facilty Total                      F85
Total Discharges , All Patients-Hospital Total
Depreciation- Buildings and Fixures
Depreciation-Movable Equipment                          F9l
Direct Salaries-All General Servce Cost Centers
Direct Salaries-All Hospital Inpatient Cost Centers     F94
Direct Salaries-Al Other Inpatient Cost Centers         F95
Direct Salaries-All Ancilary Servce Cost Centers
Direct Salaries-Al Outpatient Servce Cost Centers       F97
Direct Salaries-Total                                   F10l
Other Dir. Cost-All General Servce Cost Centers         F102
Other Dir. Cost-All Hospital Inpatient Cost Centers     Fl04
Other Dir. Cost-All Other Inpatient Cost Centers        F105
Other Dir. Cost-All Ancilary Servce Cost Centers        Fl06
Other Dir. Cost-All Outpatient Servce Cost Centers      F107
Other Dir. Cost-Total                                   Flll
Total Capital-Related Costs                             F22l
Total Facilty Cots                                      F23
Total Ancilary Charges-All Cost Centers                 F290
Total Medicare Inpatient Hospital Ancilary Charges      F3l7
Total Inpatient Ancilary Costs                          F344
Total Outpatient Charges                                F44
Total Outpatient Costs                                  F44
Medicare Inpatient Ancilary Costs , Before Limitation   F456
Medicare Malpractice Costs                              F457
Total Medicare Inpatient Operating Costs
Including Pass-   Though Costs                          F458
DRG Payments- Other Than Outliers                       F470
DRG Outlier Payments                                    F471
Reimbursable Bad Debts , Net of Recveries               F487
Medical and Other Servce (Summary Sheet)                F492
Total Fixed Assets                                      F509
Total Patient Revenues                                  F525
Net Income or Loss                                      F533
                             APPENDIX
                         MERGER INCLUDED IN TIS             STY
 Men!er                      Former Hospital                New Hospital

El Dorado , Arkansas         Union Medical Center
                             Provider Number:  048
                             Warner Brown Hospital          South Arkansas Med. Sytem
                             Provider Number:               Provider Number:

Ottumwa , Iowa               Ottumwa Rgnl Health Center

                             Provider Number: 1609

                             St. Joseph Health & Rehab
     Ottumwa Rgnl Health Center

                             Provider Number:  160
         Provider Number: 1609


Newton , Kansas              Axell Chritian Hospital

                             Provider Number: 1700

                             Bethel Deaconess Hospital
     Newton Medical Center

                             Provider Number: 170103
       Provider Number: 170103


New Bedford                  St. Luke s Hospital
Massachusetts                Provider Number: 22001

                             Parkwood Hospital
             St. Luke s Hospital

                             Provider Number: 220121
       Provider Number: 220021


Detroit , Michigan           Samaritan Health Center

                             Provider Number: 23147

                             Mount Carmel Mercy Hospital
   Mercy Hospitals & Health

                             Provider Number: 2339
         Provider Number: 230147


Kansas City, Missouri        Trinity Lutheran Hospital

                             Provider Number: 2631

                             St. Marys Hospital
            Trinity Lutheran Hospital

                             Provider Number: 26118
        Provider Number: 2631


Grand Island, Nebraska       Grand Island Memorial Hosp
                             Provider Number:   287

                             St. Franci Med Center          St. Francis Med Center
                             Provider Number: 2823
         Provider Number: 2823


Staten Island                CHS - SI
New York
                    Provider Number: 330160

                             Richmond Hospital              CHS - SI Division
                             Provider Number: 330076
       Provider Number: 330160


Allentown                    Allentown Hospital
Pennsylvania                 Provider Number: 390133

                             Lehigh Valley Hospital         The Allentown Hosp- Lehigh

                             Provider Number: 390261
       Provider Number: 390133





                                           C - 1

 Men!:er                Former Hospital             New Hospital

Winchester, Tennessee   Methodist Hosp. of Mid TN
                        Provider Number: 4458
Sewanee, Tennesee       Emerald- Hodgson Hospital   Methodist Hosp. of Mid TN
                        Provider Number:      445   Provider Number: 4458
Longvew, Washington     St. John s Hospital
                        Provider Number: 5001
                        Monticello Med Cent         St. John s Med Cent
                        Provider Number: 50070      Provider Number: 5001




                                       C - 2

